No.

IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY BRANDON FREDRICKSON, PE7T7YONER
VS.

UNITED STATES oF AMERICA, jtEspolvDAvr

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR SEVENTH CIRCUIT

MOTION FOR LEAVE T0 PROCEED IN FORMA PAUPERIS

The Petitioner requests leave to file the attached Petition for a Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis. Petitioner has previously been

granted leave to proceed in forma pauperis in this case in the Seventh Circuit under the
Criminal Justice Act. The circuit clerk's notice of the finding of indigeney and
appointment of undersigned counsel is attached hereto.

2435 Kimberly Road Suite 235 South

Bettendorf, IA. 52722
Phone: (563) 326-4095
Facsimile: (563) 594-5180

E-mail : mwbell@kirkwoodlaw. com

From : j eanette_king@ca7.uscourts.gov

To : mwbell@kirkwoodiaw.com, bbrebner@kirkwoodlaw.com
Sent : 7/14#02010:12PM

Subject : CJA evoucher -c07prod Notifying Counsel of Appointment
To: Murray Bell,

Date: 7/14/2020 8:12:30 PM.

This is to inform you that the Seventh Circuit Court of Appeals has appointed you to represent T!mothy a. Fredrickson in
case USA v. Fredrickson 7:20-AP-02051 before this court.

Thank you for accepting this appointment under the Criminal Justice Act. Please review the attached letter as it contains
important information regarding appointments in the Seventh Circuit. /Letter to Counsel\

You may access this appointment via the CJA evoucher program at www.ca7.uscourts.ciov under the Criminal Justice
Act section evoucher login.

Regards,
Seventh Circuit Court of Appeals

IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY BRANDON FREDRlcKsoN, pErJrJONER
VS.

UNITED sTATEs OF AMERICA, jtEspcJIVDEIvr

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR SEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
Munay W. Bell, P.C.
2435 Kimberly Road Suite 235 South
Bettendorf, Iowa 52722
(563) 3264095
mwbell@kirkwoodlaw.com

ATTORNEY FOR PETITIONER

QUESTION PRESENTED

Whether Section 18 USC 2251(a) is overbroad in that it provides punishment

for constitutionally protected activity in the inducement of consensual
production and consensual private transmission of images depicting sexually
explicit conduct that is not illegal in itself and is not child pornography.

2

Petitioner (Petitioner and Appellant below):
Represented by Murray W. Bell
2435 Kimberly Road, Suite 235 South
Bettendorf, Iowa 52722
(563) 326-4095

mwbell@kirkwoodlaw.com

Respondent (Respondent and Appellee below):

Represented by Jennifer L. Mathew
Assistant United States Attorney
Offlce of the United States Attorney
1830 Second Avenue, Suite 250
Rock Island, Illinois 61201
(309) 793-5884

jen.mathew@usdoj.gov

TABLE OF CONTENTS
QUESTIONS PRESENTED

2

TABLE OF AUTHORITIES

5

PETITION FOR IVRIT OF CERTIORARI

6

OPINIONS BELOW

6

JURISDICTION STATEMENT

7

STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED

7

STATEMENT OF THE CASE

8

REASON FOR GRANTING CERTIORARI

15

Argument

20

CONCLUSION

33

CERTIFICATES OF FILING AND SERVICE

35

INDEX TO APPENDIX

Motion to Dismiss on Constitutional Grounds

App. p. 2

Partial Transcript - Argument and Ruling on Motions .....................

App. p. 4

Decision of Seventh Circuit Panel

App. p.12

Order Denying Rehearing En Banc

App. p.19

4

TABLE OF AUTHORITIES

4j'j?cro/i t;.. Free Lfpeecfo coczJz.f3'o72, 535 US 234,122 S ct 1389 (2002) .........

17,18, 30

Ivew I'ork v. Fe7.6er, 458 U.S. 747,102 S.Ct. 3348 (1982)
U#z.fecJ Sf¢fef v. Prz.ce, 775 F.3d 828, 838 (7th Cir. 2014)
U.S. v. j'Jczj;6oj; E#rerrc!!.#772e;tf G7^oxp. J73c. 529 US 803,120 S ct 1 878 (2000) .......

U.S, tJ. Sfeveus, 559 US 460,130 S.Ct.1577 (2010)
U;Oz.ZecJLS'rcIJef tJ. L9feve72.T, 559 US 460,130 S.Ct.1577 (2010)

20

17-19. 24

7,

8,11,13

The Constitution
The First Amendment to the constitution of the united states ..................

13, 23, 33

Statutes
18 USC 2243(a)
18 USC 2251 (a)
18 USC 2256(1)

18 USC 2256(8)

Government Publication
Statutory Rape: A Guide to State Lc[ws and Reporting Requirements,

Sexual Intercourse with Minors,
U.S. Dept of Health and Human Services (2004)

29

PETITION FOR WRIT 0F CERTI0RARI
Petitioner Timothy 8. Fredrickson respectfully prays the Court issue a Writ
of Certiorari to address the errors below in a federal criminal prosecution.

CITATION FOR OPINIONS BELOW
The ruling denying the Motion to Dismiss was delivered in the district court
by oral pronouncement from the bench after oral arguments on January 17, 2020.

That ruling of the district court is in the attached Appendix at page 11. No written
ruling was filed. Judgment of sentence was entered in I/.S.4. v. rz.77eofky 87'cz72cZo7?

F7iec7rz.cdso77, Central District of Illinois, No. 4: 17-40032, on June 5, 2020.

Mr. Fredrickson's appeal proceeded through the Seventh Circuit under No.
20-2051. The decision from the appellate court is in the Appendix at page 12.
The appellate panel's decision was filed May 12, 2021, and is reported at I/.S.4. v.

Timotky Brandon Fredrickson, 996 F . 3d 82,1 (7t:h C:Tr. 2021)

6

JURISDICTION STATEMENT
The action was prosecuted in the United States District Court for the Central
District of Illinois. This Petition arises from the Seventh Circuit after Mr.

Fredrickson's conviction was affirmed by a panel of three judges on appeal. With
the Seventh Circuit's denial of the Petition for Rehearing En Banc on June 16,
2021, this Court's jurisdiction is conferred by Rule 10 of the Rules of the Supreme
Court of the United States. (App. 19)

_a_TATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVE_D_
Petitioner was prosecuted on the allegation of a violation of 18 USC
2251 (a). In pertinent part, the statute provides:

Any person who employs, uses, persuades, induces, entices, or coerces any
minor to engage in . . .any sexually explicit conduct for the purpose of
producing any visual depiction of such conduct . . . shall be punished as
provided under subsection (e), if such person knows or has reason to know
that such visual depiction will be transported or transmitted using any means
or facility of interstate or foreign commerce . . .including by computer, or if
such visual depiction has actually been transported or transmitted using any
means or facility of interstate or foreign commerce or in or affecting
interstate or foreign commerce or mailed."

Petitioner claims that the statute is facially overbroad, and that the prosecution and
conviction violates his First Amendment rights under the United States
Constitution. Amendment one provides:
Congress shall make no law respecting an establishment of religion, or
8

prohibiting the free exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress of grievances.

STATEMENT OF THE CASE

Statement of the Facts
The investigation leading to the instant charge began when police learned

M. Fredrickson had received photos and video from a sixteen year-old young
woman who lived in Moline, Illinois. The investigation began in February of 2017.

M. Fredrickson was twenty-seven years old at that time, and he lived in
Davenport, Iowa. The police discovered twenty-four videos in Petitioner's
possession wherein the girl had engaged in sexually explicit conduct while alone.

The girl had produced the videos for Mr. Frederickson and transmitted them to him
via cell phone. The videos included images of the girl displaying her genitalia and

the act of masturbation, both of which are within the definition of "sexually
explicit conduct" under 18 USC 2256(2)(A). A city of Moline, Illinois police

detective described for the jury how M. Fredrickson was able to make and keep
recordings of the videos the young woman had sent to him. The videos were

transmitted in January and on February 1, 2017. Through the detective, the

Goverrment provided extensive testimony describing the video evidence that was

recovered from M. Fredrickson's phone pursuant to a search warrant. The
prosecutor also placed into evidence the actual videos and still photos taken from
the videos. (Trial Transcript [hereafter "Tr."] pp.170-178) (Gov't Trial Exhibits 11

to 17A) The defense did not challenge the authenticity of the videos and did not
object to their admission into evidence. On cross-examination of the detective, the

defense established there was no evidence Mr. Fredrickson and the complaining

witness had ever met in person. The two had first made contact through an
application called Whisper. The Whisper application is an anonymous platform

where a participant can keep his or her identity unknown. The young woman
created all of the videos on her own, using her cell phone camera. Mr. Frederickson

did not provide a phone or any other type of equipment to her. There is no evidence

Mr. Fredrickson ever shared any of the images with anyone else, or that the young
woman ever transmitted the images to anyone else. There is no evidence Defendant

conveyed any threats to coerce the young woman into producing or sending the
videos. The evidence recovered also included texts and photos exchanged between

10

the two that were not of a sexual nature. On redirect, the Government pointed out

that while M. Frederickson did not give any physical items to the young woman,
he did provide remote direction in the production of the videos. (Tr. 237-244) In

her testimony, the complaining witness confirmed that she had never met Tim
Fredrickson in person. In addressing M. Frederickson's direction in production of

the videos, the young woman told the jury she made the videos, "Because Tim
asked me to." She claimed she was " very uncomfortable" because of his age, and

he had "convinced" her to produce the videos. On cross-examination, the young

woman admitted Mr. Frederickson disclosed his age to her when they first met
online, and that she chatted with him hundreds of times in January of 2017. He

never made any threats of any kind toward her. She admitted she could have
stopped communicating with him at any time. (Tr. 254-257)

Proceedings and Ruling
The Indictment was filed in the instant action on March 21, 2017. In a

single count, the Government charged M. Fredrickson with Sexual Exploitation of
a Child, in violation of 18 USC 2251(a) and (e). (R. Doc.13) Although Section

11

2251 is entitled Sexual Exploitation of Children, the prohibited conduct set out
above refers to a "minor". Under 18 USC 2256(1), a minor is defined as "any

person under the age of eighteen years ." As stated, the videos included images of

the girl displaying her genitalia and the act of masturbation, both of which are
within the definition of "sexually explicit conduct" under 18 USC 2256(2)(A).

There was no dispute that the cell phone transmissions of the videos from Illinois

to Iowa would qualify as "communication" defined as interstate commerce. The

Honorable Michael M. Mihm would eventually instruct the jury on this definition
using the stock instruction. (R. Doc.156, p. 21) Judge Mihm also heard and ruled

upon Mr. Fredrickson's Motion to Dismiss on Constitutional Grounds before trial.

The Motion to Dismiss on Constitutional Grounds with a supporting memorandum
of law was filed January 7, 2020. (App. p. 2) Judge Mihm heard oral arguments on
the motion in a telephonic hearing on January 17. (App. pp. 4-11) In his motion,

Defendant stated facts very similar to those set out in the Statement of the Facts set

out above. jinong other things, Mr. Fredrickson stated that the discovery
documents provided by the Government had shown two undisputed facts:
1 ) "In 2017, Defendant had developed a relationship with a sixteen year-old

12

girl. He is accused of asking the girl to send him photographic and video images

that included images of the girl engaging in sexually explicit conduct while alone;

2) "There is no evidence that either of the two people involved intended to
share the images with anyone else."

The Motion to Dismiss also asserted the following basic facts and

constitutional arguments, and those assertions were supported in the attached
memorandum:
1 ) "The statute does not prohibit conduct with a "child", but rather conduct
with a "minor". It prohibits the inducement to create images of sexually explicit

conduct that the Defendant knows will be transmitted using means of interstate
commerce."

2) "If M. Fredrickson and the girl had met in person in either state, it would
not have been illegal for Defendant to watch the girl engage in the sexually explicit

conduct recorded in the images, or to use his phone or a camera to record her
activity.„

3) "Section 2251(a) is overly broad in prohibiting expression and

communication of legal sexually explicit conduct. The statute violates the First

13

jinendment rights of the girl and the Defendant to direct, produce and
communicate sexual expressions in photo and video graphic forms. The images do

not record sexual abuse, and are not exempted from constitutional protection as
child pornography."
4) "Congress could have easily provided less restrictive altematives in the

legislation by prohibiting the transmission of images of conduct that in itself was a
violation of a valid criminal statute." (App. pp. 2-3)

The gist of the Government's written response rested on two points. The first

was that the videos in question were indeed child pornography, and child
pornography is not protected by the First Amendment. Secondly, the prosecutor
argued the production of the videos is prohibited by state law in both Illinois and
Iowa. (R. Doc. 146) In the telephonic oral arguments, the defense summarized the

Supreme Cout cases analyzed in the Argument, below, emphasized that the
videotaping of acts that are not illegal in themselves, or not uniformly illegal

throughout the United States, is an expression in free speech that is protected by
the First Amendment. (App. pp. 4-11) The prosecutor argued "that child

pornography and child exploitation is prohibited and is not permissible under the

14

First Amendment". The Government simply stated that "child pornography and
sexual exploitation of a child is a carveout" that is not given First Amendment

protection". The prosecutor made no attempt to define child pornography or child
sexual exploitation. (App. 9-10) Judge Mihm ruled from the bench and issued no

written ruling. Quite simply, the judge ruled, "I believe it's clear there is a carveout
for child pornography to protect children under the age of 18 . . . and, I -- the
motion to dismiss is denied." (App. p.11)

The case went to jury trial on January 21, 2020, and the jury returned a
guilty verdict on January 22. At sentencing on June 5, Judge Mihm sentenced Mr.

Fredrickson to 200 months imprisonment. Notice of Appeal was timely filed June
18, 2020. (R. Doc's.183 and 188)

REASON FOR GRANTING CERTIORARl

This is a constitutional issue of first impression that addresses an

infringement of the First Amendment right to freedom of speech and expression in
personal communications.

15

The Indictment was filed in the instant action on March 21, 2017. In a

single count, the Government charged Mr. Fredrickson with Sexual Exploitation
of a Child, in violation of 18 USC 2251(a) and (e). (R. Doc.13) In pertinent part,

the statute states under subsection (a) :

"Any personwho employs, uses, persuades, induces, entices, or coerces any minor
to engage i,n . . .any sexually explicit conduct f;or the purpose Of producing arty
visual depiction Of such conduct . . . shall be punished as provided under

subsection (e), if such person lenows or has reason to know that such visual

depiction will be transported or transmitted using any means or facility Of
interstate or foreigri commerce . . .ineluding by computei', or if such visual

depiction has actually been transported or transmitted using cny means or facility
of interstate or foreigri corrmerce or in or off:ecting interstate or f;oreigr coryl,merce
or mailed. "

With the Child Pornography Prevention Act (CPPA) of 1996, Congress
defined "child pornography" in 18 USC 2256(8) to include a photographic or

16

video image that uses a "minor engaged in sexually explicit conduct". Under
2256(1), a "minor" is defined as any person under the age of 18. The crux of the

issue lies in the fact the Supreme Court had carved out a freedom of speech

exception to allow punishment related to "child pornography" long before the
inception of the CPPA. The exception was carved out in Ivew york v. Fe/~bery 458
U.S. 747,102 S.Ct. 3348 (1982). The Ferbe7' decision did not define a "child" as

any person under 18, and in fact did not define the term "child" in any way. The

decision did uphold a conviction upon a state statute that punished use of a person
"who is less than sixteen years of age to engage in a sexual performance". 458 US
at 750,102 S.Ct. 3351. At the same time, the Court did not define its use of the

woi.d "child" by the terms of that state statute.
Two subsequent Supreme Court cases relied heavily upon Fe7'be;' to

determine that federal statutes were overbroad in their punishment of conduct
related to the production of visual images.

In 4sfecro/I v. F7'Ge Speecfr Cocz/I./z.o7z,

535 US 234,122 S Ct 1389 (2002), the Court held that Feyz)e7~ did not authorize the

punishment of speech involved in the production of virtual child pornography
produced by using computer-generated, virtual children. Because no actual child

17

was used in the production, there was no government interest in allowing
punishment for the exercise of the First Amendment right of expression. In U.S. v.
Szeve77,s, 559 US 460,130 S.Ct.1577 (2010), the Court determined Congress could

#of punish the production of "animal crush' videos that depicted the killing of

small animals. Again, the Government did not have a sufficient interest that would
justify infringement on the First Amendment right to produce the videos. The
Court distinguished the federal legislation in Sfeve77s from a critical aspect that had

motivated the Ferber decision. In Ferbe/; the Court held that state laws universally
condemn cfoz./c7 pornography, and the societal interests and protections in its

prohibition were readily cleat.. In Sfeve77s', the Court found that was not the case in

regard to cruelty to animals. There was a wide divergence among the states as to

the definition and severity of conduct that was prohibited by animal cruelty laws,
and some states had no statutes at all prohibiting cruelty to animals. Sfeve77s, 559
US at 471, 474-477,130 S.Ct. at 1586-1590 (2010)

Throughout the nation,16 and 17-yeai.-olds are granted legal permission to

engage in sexual intercourse and other sex acts with persons their own age or older.
Under 18 USC 2243(a), a person 16 years of age or older may legally engage in

18

sex acts with an adult. In dicta, the F7iee fpeecfe Cocz/I.fz.o77 opinion noted the

federal age of consent at 16 while assailing the inclusion of 16 and 17-year-olds in

the pornography statute. "Under the CPPA, images are prohibited so long as the
persons appear to be under 18 years of age.18 USC 2256(1). This is higher than

the legal age for marriage in many States, as well as the age at which persons may
consent to sexual relations." F7'ee fpeecfe Cocz/ztz.o7€. 535 U.S. at 246-247,122
S.Ct. at 1400

The district coull and the Seventh Circuit have decided the video images
involved in this case are "child pornography", but those courts refused to define the
term "child". Interpretation of a statute to abridge free speech requires application

of strict scrutiny analysis. The lower courts have refused to engage that process.

This Court must take the opportunity to strike down this statute as overbroad in

violation of the First Amendment.

19

ARGUMENT

The statute is overbroad, and unconstitutional on its face, in that it
provides punishment for constitutionally protected activity in the inducement
of consensual production and consensual private transmission of images
depicting sexually explicit conduct that is not illegal in itself and is not child

pornography.

Burden of Proof and Standard of Revi,ew
A statute that explicitly prohibits speech in the form of expression on the

basis of content is presumptively invalid, and the Government bears the burden of
overcoming the presumption. To succeed in a facial attack, the pi-oponent must

establish that no circumstances could exist under which the statute would be valid,
or prove that the statute lacks a "plainly legitimate sweep". U.S. v. Sfeve7?s, 559
US 460, 468, 473,130 S.Ct.1577,1584,1587 (2010)

Acontent-based prohibition

of speech can only stand if it can withstand strict scrutiny. "If a statute regulates
speech based on its content, it must be narrowly tailored to promote a compelling
Government interest. Jbz.d. If a less restrictive alternative would serve the

20

Govemment's purpose, the legislature must use that alternative. U.S. v. P/¢};bo)/
E7zfe7`fczz.73772e7?f Gro%p, J72c. 529 US 803, 813,120 S Ct 1878,1886 (2000).

Tl.e Panel's Error

The panel simply took its cues from the Goverrment's brief and totally
failed to address Mr. Fredrickson's arguments. Failure to address arguments can be
easily interpreted as a concession that the arguments are valid. Neither the

Goverrment, nor the panel, addressed the standard of strict scrutiny or the
Govemment's burden to prove there are no less restrictive means that would serve

the Govemment's purpose.

The definition of the term "begging the question" has evolved in the last

century. In common, contemporary parlance, a speaker or writer will use the

phrase to maintain that a certain fact "raises" a question that could or should be
"raised" in regard to that fact. In Mr. Fredrickson's instant petition, he identifies
the defect in the panel's decision as begging the question in the legal sense. The

origin of the phrase is traced to translations ofAristotle's explanations in Latin. It
is originally a tenet of formal, classic logic. Aristotle termed the defective logic as

21

"pefz.fro prz.77cz27z.z".

Simply stated, a legal argument begs the question when it

``assumes the very thing it is trying to prove". The rule ofpe#.fz.o prz.7'2czZ7z.z. is the

essence of the concept commonly known as circular reasoning.
The Merriam-Webster Online Dictionary..
httos://www.merriam-webster.com/words-at-Dlavfoeg-the-auestion

The panel failed to see the core of Mr. Fredrickson's analysis. His premise

is that the video recordings the 16-year-old made at his request and direction do not

meet the definition of child pornography as determined in Ferber For that reason,
the expression of communication between the girl and Fredrickson is protected

speech, and the Government has failed in its burden to show that there is any
exception that would allow it to punish this exercise of free speech. While
Petitioner claims the photographic video images do not constitute child

pornography, the panel merely states the obvious, i.e., that child pornography is not

protected by the First Amendment.
The May 12 circuit decision shows its defect in logic at its beginning and at
its end.

He contends that because he could have lawfully
watched the minor where she recorded the videos (Illinois)

22

and where he received them (Iowa), the First Amendment
shields him from prosecution under 18 U.S.C. § 2251(a). But

child pomography's exclusion from the First Amendment's
protection does not hinge on state law, so we affirm
Fredrickson's conviction. (Slip Opinion, pp.1-2; App.12-13)

****

Neither Sfeve77s nor F7iee fpeecfe Cocz/I.fz.o7? created an

exception to the rule of Ferber that child
pornography is not protected under the First Amendment.
We decline to do so as well. (Slip Op. 6-7; App.17-18)

The Petitioner has never made any assertion to suggest that First

Amendment protection would "hinge on state law". The argument Mr.
Frederickson brought to this Court was not that Sfeve77s or F7iee fpeecfe Cocz/I.fz.o77

"created an exception to the rule of Fe7'aer ". The argument is that if the speech in

question is not child pornography, and it is not subject to any other exception to the

right to free speech, the Government has violated the First Amendment with a
facially overbroad statute.

Protected Speech

23

The panel's conclusion that "the First Amendment's protection does not
hinge on state law" came directly out of the Govemment's brief. (Slip Op. I-2;
App.12-13) M. Fredrickson squarely confronted that misdirected assertion in his

reply brief. He referred to state laws concerning the legal age for engaging in

sexual acts and activities only for the purpose of demonstrating that the age of

consent is a factor in defining the overbreadth of the criminal statute. The age of
consent is fully blurred on a nationwide basis and a bright line cannot be found.

That state-to-state incongruity as to the legality of sexual activity and acts, based
upon the age of the actors, is a major reason in showing that Section 2251 is

overbroad.
In Sfeve77s, this Court directly addressed a question of defining the type of

speech content that could be prohibited by a federal statute. "[A]s a general matter,

`the First Amendment means that government has no power to restrict expression
because of its message, its ideas, its subject matter, or its content." Sfevc7zs, 559
US at 460,130 S. Ct at 1584. The Sfeve73s decision made it clear that the

exemption to the constitutional protection of free speech that had been

24

established in Fe7`ber for the broad category of child pornography was rooted in the
fact that child sexual abuse was conduct similarly defined as a crime in every state
in the union. The Court pointed to the F7`ee Speecfe Cocz/z.fz.o72 decision that

concluded there could not be an exemption from free speech protection where no
actual crime was depicted in the virtual images. For that reason, visual depictions

could only be punished if they were making a record of an actual criminal act of
abuse. 559 US at 471,130 S. Ct. at 1586. The statute analyzed in Sfeve7ts

prohibited dissemination of videos that depicted animal cruelty. The problem is

that "animal cruelty" could be characterized by a wide variance in definitions and

punishments nationwide, and in some states there were no animal abuse crimes at
all. 559 US at 474-477,130 S. Ct. at 1587-1590.

The panel in the instant case paid no heed to this foregoing point Mr.

Fredrickson advanced in his opening and reply briefs. Instead, the panel
summarily reached the opinion that Defendant had misinterpreted Sfeve73s and F7iee
fpeec77 Cocz/I.Jz.o7?. On that course, the decision continued to beg the question:

"Szeve72s did not suddenly confer First Amendment protection on some child

pornography-i.e., pornographic images that stop short of depicting illegal child

25

abuse." The panel borrowed that quote from I/"ztedsfczfes v. Prz.ce, 775 F.3d 828,
838 (7th Cir. 2014). Here again, the panel is using language for the circular

proposition that Mr. Frederick cannot be protected on Zfez.f child pornography

because Fe7.ber held cz// child pornography is subject to punishment. The Prz.ce

case does not provide a proper analogy, factually or legally, for deciding the instant
question.

The instant question is not whether. the instant images are a particular type of

child pornography that should be protected. The question is whether the instant

images are child pornography at all. In Prj.ce, the defendant had taken "sexually
explicit" photos of his own daughter when she was between 10 and 12 years old.

"He put some of them on the lnternet, and they have been implicated in at least 160
child-pornography investigations across the country. Price also kept a large stash of
child pornography depicting other children, which he stored on two computers."
775 F.3d at 830 The defendant in P7'7.ce was guilty of conduct very different than

that of Mr. Fredrickson and dealt with images clearly within the classification of
child pornography. More importantly, Prz.ce did not involve a constitutional

challenge to the statute. That defendant merely raised challenges to jury

26

instructions and whether they were wrongly applied to cell.aim images in evidence

at trial. The Court found no error in the instructions, but specifically added this
caveat to its holding:

Nothing in this brief discussion addresses the definition
of child pornography or limits the category to
visual depictions of criminal child abuse.
Child pornography remains categorically unprotected
and thus fully proscribable. Sfeve#£ did not suddenly
confer First Amendment protection on so772e child

pornography-i.e., pornographic images that stop
short of depicting illegal child abuse.
Prz.ce, 775 F. 3d at 838 -839

The Prz.ce decision does not address the issue Mr. Fredrickson raised in this

Court or provide a useful analogy on the instant issue. The question is not

whether child pornography is categorically unprotected speech. The question is
whether Section 18 USC 2251(a) is overbroad in that it punishes production of

images that "do not qualify as child pornography." Rather than address the

argument, the Government changed Petitioner ' s argument.

The Merits
Mr. Fredrickson's argument was twisted in different ways by the
Government in the Seventh Circuit. The following two descriptions the

27

Government put forth summarize the general misrepresentation that runs through
its brief. First, the Government wrongly asserts that Fredrickson is attempting to
establish a bright line at age sixteen for deflning images in child pornography:

Fredrickson argues that sixteen is the operative age that should
distinguish child pornography from adult pornography. His reasoning
appears to stem from the New York statute at issue in Fe7'be7' as well
as the age of consent in the state of Iowa. Def. Br. 10-3 1 . But neither
Fe7"ber nor any other case cited by Fredrickson hinge on the
production of such materials by persons over sixteen. In fact, Fe7'Z7er
specifically acknowledged the disparity across states in defining
"child." Ferber, 458 U.S. 747, 764 n.17. (Gov't. Br.14)

As will be explained below in more detail, the Petitioner's opening brief in

the Seventh Circuit did not propose a bright line mle for age sixteen regarding
persons who are subjects in photo or video images in defining child pornography.

Without addressing the core of petitioner's argument, the Government then
summarily concluded at various parts of its argument that the images involved in

the instant case are "child pornography". Of course, that summary conclusion is
offered in order to repeatedly state the proposition that I.s 77o/ z.77 I.sF#e in the instant

case, i.e. child pornography is not protected speech. For example, the Government
argues:

Here, Fredrickson's speech served his end goal: to per-suade S.B. into
creating and disseminating child pornography at his direction. This
28

conduct is analogous to the conduct considered by courts in
examining the constitutionality of § 2422(b), which prohibits the
coercion or enticement of a child to engage in illegal activity. (Gov't
Br.19)

Mr. Frederickson's overarching argument is that the private "sexting" or
other visual communications between S.B. and him did not constitute child

pornography or depict any other illegal act. The speech must therefore be protected

speech. Petitioner's references to the age of consent in New York and Iowa do not
purport to establish a bright line. In fact, the defense argument is that the age of
consent is fully bluiTed on a nationwide basis and a bright line cannot be found.

That state-to state incongruity as to the legality of sexual activity and acts, based
upon the age of the actors, is the reason that Section 2251 is overbroad. Mr.
Fredrickson securely linked that argument to the Sfei;e72s decision at pages 15-16 of

his opening brief in the Seventh Circuit.
The essence of the Sfeve#S decision is that the Government cannot create a
federal crime for producing or receiving images of acts that are recognized as legal
in some states, but illegal in others. Sfeve77s, 559 US at 474-477,130 S. Ct. at

1586-1590. That rule is fully applicable to images of a sixteen-year-old like S.B. .

who is legally engaged in a sex act, i.e. masturbation. Like the varying state

29

statutory definitions of "animal cruelty", there is also a great variance of the

definition of the age of consent across the nation.

A 2004 publication from the United States Department of Health and Human
Services reported that the majority of states statutorily define the age of consensual
consent at sixteen years of age: "[T]he age of consent varies by state. In the
majority of states (34), it is 16 years of age. In the remaining states, the age of
consent is either 17 or 18 years old (6 and 11 states, respectively)." Sfczf#fory

Rape: A Guide to State Lows and Reporting Requlremehis, Sex:ual Intercourse with
A4lz.77o7's, U.S. Dept of Health and Human Services (2004)

hEps://aspe.hhs.gov/reporvstatutory-rape-guide-state-laws-and-reporting-rea.uirem
ents-summary-current-state-laws/sexual-intercourse-minoi.s#

Additionally, Petitioner previously pointed out the Supreme Court's reference to
the sixteen and seventeen-year-old class: "Throughout the nation,16 and
17-year-olds are granted legal permission to engage in sexual intercourse and other
sex acts with persons their own age or older. Under 18 USC 2243(a), a person 16

years of age or older may legally engage in sex acts with an adult." The Free
Speecfe Cocz/z.fz.o7i opinion noted that federal age of consent while assailing the

inclusion of 16 and 17-year-olds in the child pornography statute. "Under the

30

_ _iEiE

CPPA, images are prohibited so long as the persons appear to be under 18 years of

age. This is higher than the legal age for marriage in many States, as well as the
age at which persons may consent to sexual relations." 535 U.S. at 246-247,122
S.t at 1400 (Def. Seventh Cir. Open Br. 23-24, )

Mr. Fredrickson cited the legal age of consent of sixteen years in Iowa to

illustrate the overbreadth of a federal penalty for conduct that is legal in most of
the nation. He is serving 200 months in federal prison for producing and receiving
images of S.B. engaged in legal sex acts. These are images of sex acts he could

have legally encouraged and engaged in person in his own home in Iowa with S.B.

In fact, he could have actually and legally engaged in consensual sexual
intercourse or any other sex act with S.B. in his own home.

Last, the Government insisted that proof of a facial overbreadth requires
proof of the statute's sc4bsfcz72fz.cz/ infringement of free speech rights: "Thus, for §

2251 to be facially overbroad, it must prohibit `a substantial amount of protected
speech." Wz.//z.cz7#s, 553 U.S. at 292. The Supreme Court has "vigorously enforced

the requirement that a statute's overbreadth be substantial, not only in an absolute
sense, but also relative to the statute's plainly legitimate sweep." (Gov't Br.16)

31

While specific numbers may not be available, it is undeniable that a huge portion
of the nation's sixteen and seventeen-year-olds own or possess cell phones, and a

huge portion of that same population is sexually active or at least sexually curious.

How many thousands of sixteen and seventeen year-olds share sexually explicit

photos by phone with their boyfriends and girlfriends every day? And then, the
Court must also consider the chilling effect that curtails the free speech
communications of persons in this age group. There is clearly a sweeping
infringement of free speech imposed by Section 2251 's prohibition of

communications with "minors", as that statutory definition of minors includes all
persons at sixteen and seventeen years of age.

The Government did not address M. Fredrickson's arguments that show the
absence of govemmental interests under analyses that included references to the
Congressional Findings of 1996 for the CPPA. Those arguments included

explanation of speciflc defects in any puaported justification under "Market
Deterrence" oi. "Cost-Benefit Analysis'. (Def. 7th Cir. Open Br. 25-30)

The Congress failed to narrowly tailor the language of the statute to protect

free speech, and the Government has failed in its burden in the instant case to

32

prove the statute was properly tailored to prevent an overly broad and sweeping
violation of the right to free speech. The Government has not offered an
explanation as to a compelling interest in restricting these communications for

sixteen and seventeen-year-olds and the people with whom they would

communicate. The presumption of the invalidity of the statute has not been
overcome.

CONCLUSION
Throughout this nation, 16 and 17-year-olds are granted legal permission to

engage in sexual intercourse and other sex acts with persons their own age or older.
Under 18 USC 2243(a), a person 16 years of age or older may legally engage in

sex acts with an adult of any age. Interpretation of a statute to abridge free speech
in personal communications requires application of strict scrutiny analysis. The

lower courts have refused to engage that process. This Cout must take the
opportunity to strike down this statute as overbroad in violation of the First

Amendment.

TIMOTHY BRANDON FREDRICKSON

33

Attorney for Petitioner

34

CERTIFICATE 0F FILING
I, Murray W. Bell, hereby certify that
2021, I filed the
foregoing Petition by depositing the original and en copies thereof in the United
States mail to the Clerk of the United States Supreme Court, 1 First Street NE,
Washington, DC 20543.

CERTIFICATE OF SERVICE

forego:;gTT]:tyo¥t;e±];;[T::e::ec::;gbt;aetmo:;f#
JEr`n`ITFER L. MATIHw
Assistant United States Attorney
Office of the United States Attorney
1830 Second Avenue, Suite 250
Rock Island, Illinois 61201

2021, I served the
ail to the following:

Solicitor General of the United States
Room 5616

Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001

(309) 793-5884

en.mathew

35

IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHy BRANDON FREDRICKsoN, pErTrTONER
VS.

UNITED sTATEs oF AMERICA, REspoIVDAvr

PETITION FOR IVRIT OF CERTIORARI

APPENDIX

Contents

Motion to Dismiss on Constitutional Grounds

Partial Transcript - Argument and Ruling on Motions
Decision of Seventh Circuit Panel

Order Denying Rehearing En Banc

19

4:17-cr-40032-MMM

#142

Page lof2
E-FILED
Tuesday, 07 January, 2020 03:43:43 PM
Clerk, U.S. District Court, lLCD

IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS
ROCK ISLAND DIVISION

In support of the Motion to Dismiss, Defendant states:

1. Mr. Frederickson is charged by Indictment with Sexual Exploitation of a Child under 18 USC

2251 (a). The statute does not prohibit conduct with a "child", but rather conduct with a "minor". It

prohibits the inducement to create images of sexually explicit conduct that the Defendant knows will be
transmitted using means of interstate commerce. In 2017, Defendant had developed a relationship with a
sixteen year-old girl. He is accused of asking the girl to send him photographic and video images that

included images of the girl engaging in sexually explicit conduct while alone. The tern "sexually explicit
conduct" is defined by 18 USC 2256(1). The girl sent the images to Mr. Fredrickson via cell phone. The

girl lived in Moline, Illinois, and Defendant lived in Davenport, Iowa at the time. If Mr. Fredrickson and

the girl had met in person in either state, it would not have been illegal for Defendant to watch the girl
engage in the sexually explicit conduct recorded in the images, or to use his phone or a camera to record

Appendix page No. 002

4:17-cr-40032-MMM

#142

Page 2of2

her activity. There is no evidence that either of the two people involved intended to share the images with
anyone else.

2. Section 2251 (a) is overly broad in prohibiting expression and communication of legal sexually

explicit conduct. The statute violates the First Amendment rights of the girl and the Defendant to direct,
produce and communicate sexual expressions in photo and videographic forms. The images do not record
sexual abuse, and are not exempted from constitutional protection as child pornography. Congress could
have easily provided less restrictive alternatives in the legislation by prohibiting the transmission of

images of conduct that in itself was a violation of a valid criminal statute.

WHEREFORE, because the statute is overly broad in violation of the First Amendment, the
Indictment must be dismissed.

/s/ M-v W. Bell
2435 Kimberly Road
Suite 235 South
Bettendorf, IA 52722
(563) 3264095
mwbell@kirkwood]aw.com

Attorney for Defendant

Appendix page No. 003

1

UNITED

2

CENTRAL DISTRICT OF ILLINOIS

STATES

DISTRICT

COURT

3
UNITED

STATES

OF AMERICA,

4

Plaintiff,
Criminal

5

No.

4:17-40032

VS.

6

TIMOTHY

BRANDON

FREDRICKSON,

7

Defendant .
8

TRANSCRIPT OF PROCEEDINGS
THE HONORABLE MICHAEL M. MIHM
TELEPHONIC MOTION HEARING
JANUARY 17,
2020,.
9:03 A.M.

9

BEFORE

10

PEORIA,

11

12

APPEARANCES :

13

For the Government:

ILLINOIS

DONALD 8. ALLEGRO,
ESQUIRE
JENNIFER L. MATHEW, ESQUIRE

Asst. United States Attorneys

14

1830 2nd Avenue

Rock

15

(309)

Island,

Illinois

61201

793-5880

16

For the Defendant:

MURRAY W.

BELL,

17

Murray W.

Bell,

18

2435 Kimberly Road, Suite 235 South
Bettendorf , Iowa 52722
(563)

ESQUIRE

P.C.

326-4095

19
DONOVAN

S.

ROBERTSON,

ESQUIRE

Coyle Stengel Bailey & Robertson
100 17th Street, Suite 405
Rock Island, Illinois 61201

20
21

(309)

788-0471

22
23

Jennifer E.

Johnson,

CSR,

RMR,

CRR

U.S. District Court Reporter
24

25

Central District of Illinois

Proceedings recorded by mechanical stenography;
transcript produced by computer

Appendix page No. 004

3

1

a little louder,
BELL:

please?

2

MR.

You bet

I

can.

3

Your Honor, the position is as stated, that

4

this is an unconstitutional limitation of Mr. --of

5

the First Amendment rights to free speech.

6

the history of these kind of cases and the Supreme

7

Court's ruling on them, which started in 1982 with

8

Ivew york vs. Ferber, that was a case of child

9

abuse, and in that case, the court was concerned

And for

10

about innocent children being abused for the

11

purpose of making video or -- yeah, video or

12

photographic images.

13

The interesting -- the interest the court

14

addressed mostly was the market for children's --

15

child pornography is intrinsically related to the

16

underlying abuse and was, therefore, an integral

17

part of the production of such material, an

18

activity illegal throughout the United States.

19

found that basically we were videotaping illegal

20

behavior, and that was the basis -- a part of , a

21

major part of the basis for the exclusion -- for

22

upholding the law that forbid that.

It

23

You then move ten years down to jAsj?croft vs.

24

Free Speech Coalition, and this is a different kind

25

of case because this deals with virtual children as

Appendix page No. 005

1

opposed to real children, but engaging in the same

2

sort of behavior.

3

they couldn't limit that activity because it wasn't

4

a video recording of an illegal activity or abuse

5

of a child.

6

was an expression, and so they did -- the court did

7

not find that the government could prohibit the

8

underlying activity or the video-recording of it.

9

Now, here the court ruled that

It was an artistic behavior, and it

And then you move,

of course,

to CJnitecz States

10

vs. Stevens which was in 2010.

This is an animal

11

cruelty case.

12

really -- or the government was really shooting at

13

the --what they call crush videos.

14

of, apparently, women crushing small animals,

15

stomping them, killing them, making them squeal.

16

And Justice Roberts wrote the opinion which -- in

17

the case and focused on the fact that, among other

18

things, the law as passed --and it was Title 18

19

USC Section 48.

20

illegalized virtually any behavior, including

21

killing animals.

22

required that the activity be illegal, it didn't --

23

it was a problem because the state laws throughout

24

the states are different on what constitutes

25

illegality .

The issue in the case was the state

This is videos

The law that was passed

And it --even though the statute

Appendix page No. 006

5

The court was concerned that it essentially

1

2

allowed one state to transport or export its

3

statutes into another state.

4

that while not requiring cruelty, Section 48 did

5

require that the depicted conduct be illegal.

And they pointed out

Now, then the court pointed out there are many

6
7

federal and state laws concerning the proper

8

treatment of animals, but many of them are not

9

designed to guard against animal cruelty.

And it

10

points out hunting out of season for deer might

11

constitute a crime and make a video of it illegal.

12

The problem you have, of course, is all the hunting

13

magazines and all the hunting shows on TV and all

14

of that may or may not engage in illegal behavior.

15

The court said specifically because the statute

16

allows each jurisdiction to export its laws to the

17

rest of the country, it extends to any magazine or

18

video depicting lawful hunting so long as the

19

depiction

20

case.

21

D.C.,

or the video show was shown in Washington,

22

D.C.,

you have a problem.

23

sold --this

was

a Washington,

D.C.,

So, if the magazine was sold in Washington,

Interestingly enough, I think inadvertently

24

the government actually pointed out that there's a

25

problem with its case.

The government's brief

Appendix page No. 007

6
1

talks about the behavior being of a sexually

2

explicit manner, which is actually the behavior of

3

a 16-year-old masturbating, and the government

4

claims that's a videotape that is illegal in both

5

the state of Iowa and the state of Illinois.

6

beg to differ.

7

for 30 years, and I've never seen a statute in Iowa

8

that says masturbation is illegal.

9

the jokes you can say about that, but illegalizing

And I

I've practiced in the state of Iowa

10

masturbation is really problematic.

11

is,

12

to video it in Iowa.

it's not illegal in Iowa,

I will skip all

The problem

and it's not illegal

If one reads the bottom of page four of the

13
14

government's brief, you'll see that it is illegal

15

because masturbation is specifically prohibited in

16

Illinois -- or videoing masturbation of someone

17

under 18.

But when you read the Iowa statute, it

18

says

employ,

19

coerce,

20

cause or attempt to cause a minor to engage in a

21

prohibited sexual act."

22

"who

solicit,

use,

persuade,

knowingly permit,

induce,

entice,

or otherwise

Well, masturbation is not prohibited in Iowa;

23

therefore, the recording of this in Iowa would not

24

be illegal.

25

So, our position is that it's an

Appendix page No. 008

7
1

unconstitutional limitation on freedom of speech,

2

and, therefore, the case should be dismissed.

3

THE COURT:

4

Who's going to respond?

5

MS. MATHEW:

6

All right.

THE COURT:

8

MS. MATHEW:

10
11

Your Honor,

this is Jennifer

Mathew .

7

9

Thank you.

Okay.

1'11 be arguing the government's

response in this matter.
THE COURT:

Thank you.

MS. MATHEW:

Your Honor,

the courts are pretty

-clear throughout, ever since the Ferber decision,
12
13

that child pornography and child exploitation is

14

prohibited and is not permissible under the First

15

Amendment .

16

Mr. Bell refers to the kind of --the history

17

of this case law from Ferber to Ashcroft, from

18

Ashcroft: to Stevens, but I believe his reliance on

19

the Stevens case in order to make his point is

20

misguided.

21

Honor, used the Afiller analysis and specifically

22

referenced its prior decisions in both Ferber and

23

Asj]croft in stating that, unlike in Ferber and

24

Ashcroft, animal cruelty is a completely different

25

topic.

The court, in the Stevens matter, Your

In Ferj)er and Ashcroft, the court found

Appendix page No. 009

1

that this category -- this category of speech,

2

child pornography and sexual exploitation of

3

children, is a carveout and is not subject to the

4

same analysis that the court used subsequently in

5

the Stevens decision.

6

In the Asjicroft case, Judge, the conversation

7

is about virtual child pornography, and the court

8

in that analysis was looking at virtual child

9

pornography because there are no victims in

10

virtual.

11

There aren't real people who now have to suffer the

12

repercussions of these images and videos being

13

memorialized .

14

It's virtual,.

there aren't real people.

Those aren't the facts of this case.

In this

15

case, we have a real victim.

16

The defendant solicited these specific depictions

17

from her and then preserved those depictions.

18

behavior does not fall within the First Amendment.

19

It is not protected behavior.

20

victim who suffered real harm from his conduct, and

21

because of that, we believe that the defendant's

22

motion to dismiss based on the First Amendment

23

should be denied.

24

THE COURT:

All right.

25

THE DEFENDANT:

She is not virtual.

His

There is a real

Thank you.

Your Honor,

Appendix page No. 010

if I may?

9
1

THE

2

THE DEFENDANT:

3
4

5

COURT:

Yes.

I

believe, to be very strong -THE COURT:

I'm sorry,

hold on.

Who's

talking?

6

THE DEFENDANT:

7

THE COURT:

8

MR.

9

Counsel's argument is,

BELL:

Like the statute --

I'm sorry?

Tim,

Tim,

you're not arguing.

Remain silent.

10

THE COURT:

Yes.

All right.

11

Well, with all due respect to Defense Counsel,

12

I believe it's clear that there is a carveout for

13

child pornography to protect children under the age

14

of 18.

15

here, and I --the motion to dismiss is denied.

16

Now, the other motion is on the Speedy Trial

17

grounds.

18

defense?

19

20
21

We're not talking about a virtual situation

Who's going to argue that for the

MR. BELL:

This is Murray Bell.

I will argue

that one also.
THE COURT:

Yes.

Let me ask you,

Mr.

Bell,

I

22

note in your pleading you reference the transcripts

23

from the various hearings.

24

at those, and I could be mistaken, but I believe in

25

each and every one of those the Court made a

I took the time to look

Appendix page No. 011

Case: 20-2051

Document: 40

Filed: 05/12/2021

Pages: 7

Z'n tfe€

arniteb ftartBz ®nurt nf AppBarbe
fflr[r the feilmtk ®ircuit
No. 20-2051
UNITED STATES OF AMERICA,

Plaintiff-Appetlee,
Z'.

TIMOTHY 8. FREDRICKSON,

Defendant-Appellant.

Appeal from the United States District Court for the
Central District of Illinois.
No. 17-CR40032 - Michael M. Mihm, /ztczge.

ARGUED FEBRUARY 18, 2021 - DECIDED MAY 12, 2021

Before BRENNAN, SCUDDER, and KIRSCH, a.rcc".f /%dges.

BRENNAN, Cz.7`czJzf J#dge. The First Amendment does not

protect child pornography. In challenging his conviction for
inducing sexually explicit videos from a minor, Timothy
Fredrickson asks us to reconsider this well-established

principle. He contends that because he could have lawfully
watched the minor where she recorded the videos (Illinois)
and where he received them (Iowa), the First Amendment
shields him from prosecution under 18 U.S.C. § 2251(a). But

Appendix page No. 012

Case: 20-2051

Document:40

Filed: 05/12/2021

Pages: 7

No. 20-2051

child pomography's exclusion from the First Amendment's
protection does not hinge on state law, so we affirm
Fredrickson's conviction.
I

In December 2016, S.B.,1 a sixteen-year-old girl from

Illinois, began chatting on the internet with Fredrickson, a
twenty-seven-year-old man from Iowa. Over the next two
months, S.B. and Fredrickson communicated through social
media, including Whisper, Snapchat, and Facebook.
Eventually their conversations turned sexually explicit, with
S.B., at Fredrickson's request, sending him images and videos
of her. When Fredrickson sent flowers to S.B.'s high school in
February 2017, her mother became suspicious and discovered
the relationship, later contacting police. A search of
Fredrickson's cell phone revealed he had been recording the
videos and saving the images S.B. had sent him via Snapchat.
Fredrickson possessed at least fifteen sexually explicit videos
of S.B. on his phone.

A federal grand jury indicted Fredrickson for sexual exploitation of a minor in violation of 18 U.S.C. § 2251(a), which
provides in relevant part:

Any person who employs, uses, persuades, induces,
entices, or coerces any minor to engage in . . . any sexually explicit conduct for the purpose of producing any
visual depiction of such conduct . . . shall be punished
. . . if that visual depiction was produced or transmitted
using materials that have been mailed, shipped, or

1 We continue the district court's practice of identifying the minor by
her initials.

Appendix page No. 013

Case: 20-2051

Document: 40

Filed: 05/12/2021

Pages: 7

No. 20-2051

transported in or aff ecting interstate or foreign commerce by any means ....
18 U.S.C. § 2251(a); scc ¢Jso 18 U.S.C. § 2256(1) (defining a "mi-

nor" as ``any person under the age of eighteen years'').
Fredrickson moved to dismiss the indictment, citing Illinois
and Iowa state laws. To him, the First Amendment's lack of

protection for child pornography depended on the material
depicting child sex abuse. S.B.'s videos, in contrast, showed
conduct that he could have lawfully viewed in person within
either state. So, Fredrickson argued, § 2251(a) criminalized

protected expressive speech. After a brief hearing, the district
court orally denied his motion and ruled there was no First
Amendment defense to the prosecution. A jury found
Fredrickson guilty, and the district court sentenced him to 200

months' imprisorment.
11

0n appeal Fredrickson renews his argument from the district court: § 2251(a) is unconstitutionally overbroad. Under
First Amendment overbreadth doctrine, `'a statute is facially
invalid if it prohibits a substantial amount of protected
speech." United States v. Williams, 553 U.S. 285, 292 (2008).

And ``[t]he overbreadth claimant bears the burden of demonstrating, from the text of the law and from actual f act, that
substantial overbreadth exists." Vz.rgz.77Z¢ tJ. Hz.cke, 539 U.S.113,

122 (2003) (internal quotation marks and alteration, omitted);
see Lr77ztcd Sfflfcs z7. Bo7iz7£, 932 F.3d 523, 537 (7th Cir. 2019)

(same), cc7`£. de77z.CCZ, 140 S. Ct. 960 (2020). We review de novo

this constitutional challenge to a statute. Lr7zzfcd S£¢fes I/. 8#7`7'ozos, 905 F.3d 1061,1063 (7th Cir. 2018).

Appendix page No. 014

Case: 20-2051

Document: 40

Filed: 05/12/2021

Pages: 7

No. 20-2051

Supreme Court precedent presents a problem for
Fredrickson's argument, however. The First Amendment provides that ``Congress shall make no law . . . abridging the freedom of speech." Yet in Nczo Yo7`k c7. Fc7`Z7e7`, the Court held that

child pornography was categorically unprotected under the
First Amendment. 458 U.S. 747, 763 (1982) (``Recognizing and

classifying child pornography as a category of material outside the protection of the First Amendment is not, [sic] incompatible with our earlier decisions.''); see ¢Zso Chczpzz.77sky z7. Nczo
Hcz77tpsfez.rc, 315 U.S. 568, 571-72 (1942) (``There are certain

well-defined and narrowly limited classes of speech, the prevention and punishment of which ha[ve] never been thought
to raise any Constitutional problem." (footnote omitted)).
Since Fe7`Z7e7`, the Court has upheld the constitutionality of stat-

utes criminalizing child pornography's possession under
Ohio law, OsZ7o7iic t7. Ofe2.a, 495 U.S. 103, 108-22 (1990), and its

solicitation under federal law, Wz.ZZZcz77ts, 553 U.S. at 288, 297-

304. Only virtual child pornography has retained First
Amendment protection because it ``is not `intrinsically related' to the sexual abuse of children, as were the materials in
Ferber." Ashcroft v. Free Speech Coal., 535 u.S. 2:34, Z50 (200Z)

(quoting Fe7`Z7e7`, 458 U.S. at 759). This precedent is prologue to

any consrfutional challenge, as here, to the criminalization of
child pornography.
Despite all this, Fredrickson insists that his conviction under § 2251(a) contravenes the First Amendment. He reads the
post-Ferber case\aw-specifically, United States v. Stevens, 559
U.S. 460, 471 (2010), and Free Spcec7t Coal 535 U.S. 234 at 250-

as conditioning the lack of constitutional protection for child

pornography on the criminality of the substantive conduct
depicted. True, Sfcz/c7is noted that ``Ferz7cr presented a special

case" under the First Amendment as ``[t]he market for child

Appendix page No. 015

Case: 20-2051

Document:40

Filed: 05/12/2021

Pages: 7

No. 20-2051

pornography was `intrinsically related' to the underlying
abuse, and was therefore `an integral part of the production
of such materials, an activity illegal throughout the Nation."
Sfeuc7is, 559 U.S. at 471 (quoting Ferz7er, 458 U.S. at 759, 761).

And as discussed, virtual child pornography receives First
Amendment protection, according to Free SpeecJt CoGJzfz.o7z: ``In

contrast to the speech in Fc7'Z7c7`," virtual child pornography

``records no crime and creates no victims by its production.''
F7`ce Speecfe Coflz., 535 U.S. at 250. For Fredrickson, S.B.'s videos
did not depict child abuse, so Sfcz7c7ts and F7`cc Spcccfe Coflzi.fi.o7i

protect him from prosecution under § 2251(a) .

But this position misunderstands both cases and their
relation to Fe7`Z7e7`. Sfcz7e7is concerned a First Amendment

challenge to a statute, 18 U.S.C. § 48, that ``criminalize[d] the

commercial creation, sale, or possession of certain depictions
of animal cruelty." 559 U.S. at 464. So when ``the Court
mentioned child pornography" in Sfcz;e7ts, ``it did so only in

passing and then only to reject an analogy between it and
depictions of animal cruelty and to decline the government's
invitation to recognize the latter as a new category of
unprotected speech." Lhei.fecz S£¢fes t7. P7`i.ce, 775 F.3d 828, 838

(7th Cir. 2014). In other words, ``Sfct7e7is did not suddenly

confer

First

Amendment

protection

on

some

child

pornography-i.e., pornographic images that stop short of
depicting illegal child abuse." Jd. at 839. Because Sfez7c7ts

involved animal cruelty videos and not child pornography,
Fredrickson's gloss on Fe7`bcr ``was not likely to be hidden"

within that decision. Jd. We rejected Fredrickson's argument
in Prz'ce, and we do the same here.
Fredrickson's reliance on F7'ec Spcecfe Co¢Zzfz.o7t is similarly

flawed. There, the Court confronted the constitutionality of

Appendix page No. 016

Case: 20-2051

Document: 40

Filed: 05/12/2021

Pages: 7

No. 20-2051

the Child Pornography Prevention Act, 18 U.S.C. § 2251 ef seq.,
which ``extend[ed] the federal prohibition against child por-

nography to sexually explicit images that appear to depict minors but were produced without using any real children.'' F7`ec
Speecfe CoczZ., 525 U.S. at 239. In describing the relevant prece-

dent, the Court stated that ``under Fe7'Z7e7`, pornography showing 77t!.7to7`s can be proscribed whether or not the images are

obscene[.]" Jd. at 240 (emphasis added). Taken on its own
terms, Fc7`Z7er did not limit its definition of child pornography
to depictions of minors only under the age of sixteen. Instead
it cited several state statutes setting the age of a minor at under seventeen or eighteen. 458 U.S. at 764 n.17. Free Spcecfe Co¢Zi.£jo7?'s description of Fe7`Z7er was-and remains-accurate.
See Free SpeecJt Co¢Z., 535 U.S. at 240, 249-51.

To be sure, F7`cc SpeccJ7 CoflJz.fzo7i treated virtual child por-

nography differently. 535 U.S. at 250. But it did so based on
the lack of a sufficient causal connection between the virtual
images and the actual harm to minors. Jd. So F7`cc Speecfe Co¢Zz.£z.o77 may have distinguished Fc7'bcr but did not undermine it.

Unlike the virtual child pornography in Free Speech Coflzzfzo7t,

the harm to S.B. from Fredrickson's inducement of sexually
explicit videos ``necessarily follow[ed] from the speech." 535
U.S. 234 at 250. As recognized in Fcrz7c7`, these depictions ``are

a permanent record" of S.B.'s victimization, 458 U.S. at 759, a

reality she reiterated during her victim impact statement at
sentencing. Her consent, then, makes no difference.
``Congress may legitimately conclude that even a willing or
deceitful minor is entitled to governmental protection from
`self-destructive decisions' that would expose him or her to
the harms of child pornography." u7izfcd S£¢£cs I;. FzefcJter, 634
F.3d 395, 403 (7th Cir. 2011). Neither Sfcz)e77s nor F7`cc Speecfe

Co¢Zzfz.o7z created an exception to the rule of Ferz7er that child

Appendix page No. 017

Case: 20-2051

Document:40

Filed: 05/12/2021

Pages: 7

No. 20-2051

pornography is not protected under the First Amendment.
We decline to do so as well.
Section 2251(a) is constitutionally valid. From the moment
Fredrickson persuaded S.B. to record and send him sexually
explicit videos, he committed a federal crime-one "fully
proscribable" under the Constitution. P7`I.ce, 775 F.3d at 839.

Under the First Amendment, § 2251(a) suffers from no
overbreadth problem because child pornography enjoys no
constitutional p rotection.
AFFHonD

Appendix page No. 018

Case: 20-2051

Document: 47

Filed:06/16/2021

Pages: 1

"Itifefr ft#t2z ®"rt nf Appearfe
For the Seventh Circuit
Chicago, Illinois 60604
June 16, 2021

Before
MICHAEL 8. BRENNAN, Cc.rc%3.f J%dge

NICHAEL Y. SCUDDER, a.7`c%3.f /#dgc
THOMAS L. KIRSCH H, Cz.rc%2.f J%dge

No. 20-2051

UNITED STATES OF AMERICA,
Plaintiff-Appelhee,

Appeal from the United States District
Court for the Central District of
Illinois.

Z'.

No. 17-CR-40032

TIMOTHY 8. FREDRICKSON,
Defendant-Appellant.

Michael M. Mihm,
Judge.

ORDER

On consideration of the petition for rehearing and for rehearing en banc filed by
Defendant-Appellant on May 26, 2021, no judge in active service has requested a vote
on the petition for rehearing en banc, and the judges on the original panel have voted to
deny rehearing.
Accordingly, the petition for rehearing is DENIED.

Appendix page No. 019

